<html>
<title> - MEMBER DAY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                               MEMBER DAY

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           NOVEMBER 21, 2019
                               __________

      Printed for the use of the Committee on House Administration
      

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-530 PDF                WASHINGTON : 2020  



         
                   Committee on House Administration
                             116th Congress

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
SUSAN A. DAVIS, California               Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California
                            
                            
                            
                            C O N T E N T S

                              ----------                              NO
VEMBER 21, 2019
                                                                   Page
Member Day.......................................................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
Prepared statement of Chairperson Lofgren........................     2
Hon. Barry Loudermilk............................................     3
 Prepared statement of Hon. Loudermilk...........................     4

                               WITNESSES

Hon. Tom Rice, Representative, Seventh District of South Carolina     5
Prepared statement of Hon. Rice..................................     8
Hon. Dean Phillips, Representative, Third District of Minnesota..    10
Prepared statement of Hon. Phillips..............................    13
Hon. Derek Kilmer, Representative, Sixth District of Washington..    18
Prepared statement of Hon. Kilmer................................    20
Hon. Tom Graves, Representative, Fourteenth District of Georgia..    24
Prepared statement of Hon. Graves................................    26
Hon. Pete Olson, Representative, Twenty-Second District of Texas.    30
Prepared statement of Hon. Olson.................................    32
Hon. Mark Takano, Representative, Forty-First District of 
  California.....................................................    36
Prepared statement of Hon. Takano................................    38

                       STATEMENTS FOR THE RECORD

Hon. Justin Amash, Representative, Third District of Michigan, 
  statement......................................................    46
Hon. Tony Cardenas, Representative, Twenty-ninth District of 
  California.....................................................    47
Hon. Anna G. Eshoo, Representative, Eighteenth District of 
  California, statement..........................................    48
Hon. Brian Fitzpatrick, Representative, First District of 
  Pennsylvania, statement........................................    49
Hon. Carol Miller, Representative, Third District of West 
  Virginia, statement............................................    50
Hon. Seth Moulton, Representative, Sixth District of 
  Massachusetts, statement.......................................    53
Hon. Stacey E. Plaskett, Delegate, United States Virgin Islands, 
  statement......................................................    55
Hon. Jose E. Serrano, Representative, Fifteenth District of New 
  York, statement................................................    58
Hon. Haley Stevens, Representative, Eleventh District of 
  Michigan, statement............................................    59
Hon. Kathy Castor, Representative, Fourteenth District of 
  Florida, statement.............................................    60

 
                               MEMBER DAY

                              ----------                              


                      THURSDAY, NOVEMBER 21, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 8:35 a.m., in room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(Chairperson of the Committee) presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Fudge, Aguilar, and Loudermilk.
    Staff Present: Jamie Fleet, Staff Director; Sean Jones, 
Legislative Clerk; David Tucker, Parliamentarian; Khalil 
Abboud, Deputy Staff Director; Peter Whippy, Communications 
Director; Veleter Mazyck, Chief of Staff, Office of 
Representative Fudge; Lisa Sherman, Chief of Staff, Office of 
Representative Susan Davis; Evan Dorner, Office of 
Representative Aguilar; Lauren Doney, Office of Representative 
Raskin; Mariam Malik, Staff Assistant; Courtney Parella, 
Minority Communications Director; Tim Monahan, Minority Deputy 
Staff Director; Jesse Roberts, Minority Counsel; and Jennifer 
Daulby, Minority Staff Director; Nick Crocker, Minority 
Director of Member Services; and Susannah Johnston, Minority 
Legislative Assistant.
    The Chairperson. The Committee will come to order. We have 
a busy morning ahead of us, so I will keep my remarks brief.
    House Resolution 6, the rules package adopted at the 
beginning of this Congress, requires committees to hold a 
hearing at which it receives testimony from Members, Delegates, 
and the Resident Commissioner on proposed legislation within 
its jurisdiction. In response, the Committee on House 
Administration is holding its first Member Day hearing.
    Our Committee's jurisdiction is varied, to include, among 
other areas, elements of the day-to-day operation of the House, 
committee funding, the Smithsonian Institution, the Library of 
Congress, campaign finance, and elections.
    As a Committee, we all work closely together, and we are 
pleased to hear this morning from our colleagues who are not on 
the Committee and who wish to share their legislative proposals 
with us.
    Now, I would like--the Ranking Member, Mr. Davis, was 
unable to be here this morning, but we are happy to have Mr. 
Loudermilk, and I will now recognize him for any statements he 
might wish to make at this time.
    [The statement of The Chairperson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Loudermilk. Thank you, Madam Chairperson. I heard that 
collective sigh when you said that Representative Davis wasn't 
going to be here. Let the record reflect that.
    Thank you, and welcome all that are here on time already 
for this Members Day. The new requirement in the House Rules 
that all committees hold a Members Day is a great opportunity 
for us to hear firsthand from our colleagues on both sides of 
the aisle on important issues within our wide range of 
jurisdiction.
    We do have an obligation on this Committee to ensure that 
the legislative branch is running as efficiently as possible in 
order to make it easier for Members to perform their daily 
functions and best serve the constituents that we all serve.
    We should also carefully and thoughtfully review and take 
up legislation before this Committee that not only has a 
positive impact on our Nation, but also makes sense for both 
the Federal Government and the American taxpayer.
    I want to thank all of my colleagues who took time to come 
before us today to express their concerns or, more importantly, 
ideas, and I look forward to hearing what you have to say.
    Thank you, and I yield back.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thanks very much.
    Not every Member has yet arrived, but we are going to be 
rewarding the Members who have been on time by hearing from 
them first. I will note that Members who are not able to attend 
will, without objection, have their remarks submitted for the 
record.
    First, we would like to recognize our colleague, Mr. Tom 
Rice, who was elected in 2012 and represents South Carolina's 
Seventh District, which includes eight counties in northeastern 
South Carolina and includes Florence and Myrtle Beach. He 
serves on the Ways and Means Committee.
    And of course, as I mentioned earlier, your full statement 
will be made part of the record.
    We also have Representative Dean Phillips, who was elected 
in 2018 and represents Minnesota's Third District, which 
includes Minnetonka and the counties of Hennepin, Carver, and 
Anoka. He serves on the Financial Services, Foreign Affairs, 
and the Ethics Committee. That is the booby prize. I did it for 
8 long years.
    First, we will turn to you, Mr. Rice, and then Mr. 
Phillips.

 STATEMENT OF THE HON. TOM RICE, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF SOUTH CAROLINA

    Mr. Rice. Thank you, Madam Chairperson, and standing in for 
Rodney Davis, Mr. Loudermilk.
    I am here to talk about the improvement of the Cannon 
Office Building, the renovation of the Cannon Office Building.
    I have a little experience in offices. We have several 
office buildings back home. And I have built office buildings 
and rent them, and my wife still manages these things. So we 
have a little experience in commercial real estate.
    She, out of curiosity, got on the website to learn a little 
bit about the Cannon Renewal Project, cost $725 million, which 
is an absurd price. On the website it says 826,000 square feet. 
That is difficult for me to believe. I don't think it is that 
big. But even if you take that at face value, it is $910 a 
square foot for the renovation.
    The last office building that I built was in 2008, cost 
$130 a square foot, much nicer in terms of modern office 
building, Class A space than the Cannon Office Building is, and 
was at a price of about one-eighth of what we are paying not to 
build--not to build--but to renovate the Cannon Office 
Building.
    So if we are going to pay eight times as much for a 
renovation, we should expect that we would get a very top 
quality result. We decided to move into one of the spaces in 
the newly renovated section, and we did that. And there are 
certainly some upgrades to the old section, but it is nothing 
like I would expect from a $50-a-square-foot renovation, much 
less a thousand dollar a square foot renovation.
    The first thing that really came out and bothered me was 
the elevators. They had on the corner of where my office is, 
the elevators were not synchronized, so that if you would have 
to go and push one button and then walk over to the other side 
and push the other button, and they would come without any 
synchronization. It is a complete waste of time every day for 
everybody. And I got them to work on that. It is only partially 
done. But we should expect a lot more.
    The second problem--I am limited on time, I could spend a 
half an hour talking about this--the second problem is the 
vermin. We are overrun with mice. And Tom Rice, we used to keep 
individually wrapped Rice Crispy treats in a bowl for people to 
eat when they came in, but we had to stop doing that because 
the rats would get in the bowl every night and chew through all 
the paper.
    And when you come in every day there is rat feces on the 
desk, on the floor, on the conference table. And it is 
completely absurd that we would consider paying $1,000 a square 
foot for renovation and have to deal with this kind of 
nonsense, and, you know, typical Federal bureaucratic nonsense.
    I used to rent to the--in one of my office buildings I had 
the Social Security Administration. Another office building, 
the FBI was one of my tenants. And I can absolutely assure you 
that if we had allowed these things to occur in these things 
that we were renting to the Federal Government, they would have 
first moved out and, second, sued me for providing inadequate 
space.
    One of my workers in the Cannon Office Building became ill 
last month with pink eye, which she assumes came from rat feces 
on her desk that she put her hands on and then rubbed her eye.
    And I promise you, if other forms of disgusting-type 
results had occurred, let's say we had mold in the office, 
everybody would be all up in an uproar and we would be 
evacuating the building. But for some reason we are okay with 
rat poop all over the office and all over our desk and in our 
drawers and in everything in that office.
    Another problem is--I am sorry, I am going to run out of 
time--but one of the office buildings I ran I put balconies on, 
and we have spent a lot of money to put pavers, concrete pavers 
where people could walk on these things and have proper drains 
and all this. And they did the same thing. I noticed--I 
understood what system they put on the Cannon Office Building 
on the fifth floor.
    And they also spent I don't know how many untold millions 
building up the railings on the fifth floor where it would be 
safe for people to go outside. But for some unknown reason, 
with this expensive concrete paver system they have put down 
for the flooring and with these higher railings, they don't 
allow you access to the outside, which is ridiculous.
    And when I asked the Architect of the Capitol about it, 
they said, well, the flooring wouldn't allow for people to walk 
out there. Let me tell you, I have developed these things. I 
know what kind of flooring they put there, and the reason they 
put it there is so people could walk on it.
    And then the last thing is the heating and cooling. You 
know, being in the commercial office building business, I 
understand that there are always issues with balancing. We have 
approached the Architect of the Capitol. I have met with the 
Architect of the Capitol. We have talked to him about it. And 
it is still, with a thousand dollar a square foot price tag, 
cannot seem to be working. All the people in my office that 
work in the pit area where the staff is, they all have blankets 
wrapped around them every single day.
    To sum up quickly, for the price that we are paying, we 
should expect more. If I ran my office buildings the way the 
Architect of the Capitol is running these office buildings, I 
wouldn't have any tenants, and I would be fired. I would be 
fired from doing this. It is absurd. It is far below standard. 
And we are paying five times as much.
    I told the Architect of the Capitol what we need to do is 
get the contractor in here and meet with the contractor to talk 
about these problems, but I assume, if we are paying them a 
thousand dollars a square foot to renovate it, the contractor 
is probably in Tahiti somewhere celebrating this wonderful 
victory that he got for getting this absurd contract.
    So with that, I yield back.
    [The statement of Mr. Rice follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you, Mr. Rice.
    Just a note. Mr. Raskin and I both also serve on the 
Judiciary Committee, and we have a markup that goes back into 
session at 9 o'clock. Mrs. Davis will be here by then, but I 
don't want you to think we are not interested; we are. We just 
have another obligation.
    Before I call on Mr. Phillips, I will note that Mr. Kilmer 
and Mr. Graves have joined us, and we will hear from them as 
well.
    We will go into questions afterwards, but I just want you 
to know, Mr. Rice, we appreciate your testimony. We had the 
first ever oversight hearing on that construction in September, 
and obviously a lot of the overruns had occurred over the years 
with nobody looking from the Congress.
    We have the Inspector General looking at it as well as the 
Architect of the Capitol. Your feedback is very welcome, and I 
am hoping we can follow up with our staff and you to loop you 
in with the Inspector General on that.
    Obviously, it is more expensive to renovate than to build 
new, and we have a historic building, but those conditions are 
completely unacceptable, and I am hoping we can follow up with 
you subsequent to this hearing.
    Mr. Raskin. Madam Chairperson?
    The Chairperson. Yes.
    Mr. Raskin. If I might also, I very much appreciate your 
testimony Mr. Rice.
    Just one quick clarification. You started off by talking 
about the mice problem, which I am well aware of as a resident 
of Cannon, but then you switched over to rats. I don't know if 
there is media here, and I just want to make sure we are clear 
about that.
    Mr. Rice. I guess, I am putting all of vermin under the 
umbrella of the term ``rat.''
    Mr. Raskin. As far as I know, we are just dealing with a 
mouse problem, a mice problem at this point. I mean, rats are a 
different breed entirely, I think, which isn't to defend mice 
as residents of the Cannon Building.
    The Chairperson. Neither one are welcome. Neither are 
welcome.
    Mr. Raskin. Yeah. I yield back, Madam Chairperson.
    The Chairperson. Mr. Phillips, you are now invited to give 
your testimony.

   STATEMENT OF THE HON. DEAN PHILLIPS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Phillips. Thank you, Chairperson Lofgren, Mr. 
Loudermilk, Mr. Raskin, Members of the Committee. Thank you for 
the invitation to offer testimony this morning.
    The Committee on House Administration plays a pivotal role 
in my top priority here in Congress, and that is restoring 
trust in government through reforms that put the American 
people back at the center of our system.
    It is my mission to advocate reforms that reduce the 
influence of money in our politics and protect our democracy 
through legislation like H.R. 1, the For the People Act, and 
the SHIELD Act.
    But I am here today to speak about a different type of 
desperately needed reform in the Halls of Congress itself.
    Here in the House we work in social, organizational, and 
physical environments that were designed for the early 20th 
century. Congress, it seems, is designed to make collaboration 
and innovation difficult, and it is working very well.
    A prime example of processes that fail us and our 
constituents is orientation. Like many of my freshman 
colleagues, I entered this Congress ready to listen, to learn, 
to advance good ideas no matter what party they come from, and 
to serve the American people.
    While I thought the work of the House Administration 
Committee and its staff was exceptional with regards to 
planning and executing such a large logistical operation, I do 
think that improvements can be made to the content of the 
orientation program itself.
    In short, I believe focusing on two things during 
orientation would greatly improve the event. First, the 
professional development of each and every new Member. Second, 
creating opportunity to collaborate with colleagues across the 
aisle.
    For example, many new Members, like me, have no experience 
in government, let alone legislative bodies. Breakout sessions 
on process and procedures of this institution could 
significantly improve the ability of freshman Members to hit 
the ground running for our constituents.
    Furthermore, as Members of Congress, we are tasked with 
providing oversight to enormous government agencies, without 
many of us having experience in these agencies. Professional 
development sessions with academics from the CRS or employees 
from the agencies themselves would be very useful in giving us 
a foundation of knowledge.
    Finally, at a time when partisanship is at a fever pitch, I 
believe orientation needs to focus on intentionally creating 
spaces for cross-partisan relationship building. As an example 
of this, I have taken steps to lay a foundation of 
understanding and respect with my Republican colleagues by 
joining the Problem Solvers Caucus and partnering with my 
fellow Minnesotan, Congressman Pete Stauber, to send our staff 
in Minnesota to the very first ever de-polarization workshop in 
Congress, forging friendships with my Republican colleagues and 
their families.
    In my view, this should be the rule, not the exception. The 
American people are expecting us to put party politics aside 
and get things done, and not doing so is a dereliction of our 
collective duty. We can and should be looking ahead and being 
intentional to ensure that every opportunity is taken to 
streamline the processes of Congress to get work done on behalf 
of the people.
    One possible way to do that for orientation would be 
instituting a bipartisan orientation committee. Much like the 
Select Committee on the Modernization of Congress has worked 
dutifully and respectfully to move forward institutional 
reforms, perhaps a similar group of Members could work together 
to plan orientation with an eye towards educating Members in 
the fundamentals of work in this institution and creating 
events conducive to relationship building.
    We must look beyond ourselves. How have successful 
organizations across our country innovated at onboarding new 
employees? Where can we improve?
    We should apply this critical eye not just to our processes 
but to our environments themselves. Right now my staff work 
behind desks that are far older than they are, cramped in 
spaces that seem to have been designed to disincentivize even 
speaking with one another.
    While our space does limit us, we must not simply accept it 
and move forward hindered in our ability to work for our 
constituents. We must use design to inspire better outcomes.
    The reality is that while these spaces and these processes 
may have worked decades ago, the world outside of Washington, 
D.C., has moved forward swiftly. If we continue to fail to keep 
up with that progress, we will become less and less able to 
deal with the emerging issues of the 21st century. And if we 
are to catch up, we need to be open to a much broader range of 
ideas.
    That is why I believe we should also hold a summit to 
reinvent Congress where we bring in the very best minds from 
across the country to ideate and expand on the work currently 
being done here in the Select Committee on Modernization. There 
we can elicit the experience of those across the private 
sector, those who have managed large shifts in organizational 
culture and environment and learn how to implement such changes 
to streamline Congress.
    We must take every opportunity now to improve the House of 
Representatives for tomorrow. Failure to do so will continue to 
diminish our ability to work on behalf of the people who sent 
us here.
    Thank you, Madam Chairperson and Members of the Committee.
    [The statement of Mr. Phillips follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    I would like to note that Representative Derek Kilmer, who 
was elected in 2012, represents Washington's Sixth District, 
which includes Tacoma, Bremerton, and Port Angeles, and he 
serves on the Appropriations Committee and is chair of the 
Select Committee on the Modernization of Congress.
    Mr. Tom Graves was elected in 2010 and represents Georgia's 
14th District, which includes Dalton and Rome. He serves on the 
Appropriations Committee as Ranking Member on the Financial 
Services Subcommittee and also as Vice Chair of the Select 
Committee on the Modernization of Congress.
    We also have this morning Representative Pete Olson, who 
was elected in 2008, and who represents Texas' 22nd District, 
which includes Sugar Land and Pearland. He serves on the Energy 
and Commerce Committee.
    We welcome all of you. I am going to the Judiciary 
Committee and will invite Representative Susan Davis to sit 
here in my stead.
    Mrs. Davis [presiding]. Thank you very much while we played 
musical chairs here.
    So I understand, Mr. Kilmer, you are next. Thank you.

    STATEMENT OF THE HON. DEREK KILMER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Kilmer. Thank you, Chairwoman Davis. I want to thank 
Chairperson Lofgren and Ranking Member Davis for hosting 
today's Member Day hearing. I also want to thank them for their 
leadership on the Committee on House Administration and for 
their partnership on the Select Committee on the Modernization 
of Congress.
    I am here today to talk about the important work of the 
Select Committee on the Modernization of Congress, which I 
chair and have the honor of working with Vice Chair Tom Graves, 
who has been a terrific partner in this effort.
    We have been tremendously fortunate to work closely with 
the Committee on House Administration, and I look forward to 
our continued collaboration.
    As you know, many of the issues in our mandate are issues 
that the Committee on House Administration has been working 
diligently on for decades. We are very fortunate to have your 
Committee's expertise and guidance as the Select Committee does 
its work.
    Every few decades Congress takes a look inward and decides 
it needs to fix itself. In most of these instances Congress 
forms a select committee and charges them with figuring out 
what the problems are and recommending solutions.
    The Select Committee on the Modernization of Congress is 
the latest incarnation of that. The last one was in 1992. The 
Committee is truly bipartisan, with six Democrats and six 
Republicans. I chair the Committee, Tom Graves serves as the 
Vice Chair, and we work as partners, as do our Committee 
Members.
    I have been incredibly impressed and encouraged by the 
collaboration of the members of the Select Committee, and I 
believe that we are proving that it is possible for Members on 
both sides of the aisle to sit down together, engage in tough 
discussions, and ultimately find bipartisan solutions to the 
challenges that we face.
    The Select Committee's approach has been to start with 
small but important wins while building support and buy-in as 
we move onto more challenging topics, and our work so far this 
year reflects this plan. We have unanimously passed 29 
recommendations that take up important issues like 
transparency, staff diversity and retention, and technology in 
the House.
    The extension that we recently received, combined with the 
institutional support that we have worked so hard to build over 
the course of the year, I think will help us as we work through 
the tough issues that we intend to take up over the course of 
the next year.
    As you know, the Select Committee does not have legislative 
authority, but we are packaging our recommendations into 
legislation as a way of ensuring that they actually get 
implemented further down the road. By moving legislation to 
implement our reforms in realtime, we hope to have the 
opportunity to support the work of the referral committees, 
including this one.
    This approach sets us apart from our predecessor reform 
committees, which generally produced a report rather than 
producing recommendations that could turn into legislation and 
then actually enact real change. Those past select committees 
didn't introduce legislation, and they didn't see forward 
motion on a lot of the recommendations before those committees 
were formally dissolved.
    We look forward to working with the Committee on House 
Administration as the legislation implementing our reforms 
moves forward. We understand that the legislative version of 
most of our recommendations will end up in this Committee, and 
we will do our part to support and promote your process and 
your work, and appreciate this Committee taking up those 
recommendations and the legislation that will come before you.
    So I thank you for the opportunity to speak before the 
Committee today and stand ready to answer any questions that 
you may have.
    [The statement of Mr. Kilmer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis. Thank you very much.
    And we will now hear from Mr. Graves and perhaps come back 
and just have a few comments for you. Thank you.

STATEMENT OF THE HON. TOM GRAVES, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Graves. Good morning, Mrs. Davis and Mr. Loudermilk. 
Good to be with you. We are grateful for Chairperson Lofgren 
and Ranking Member Davis for hosting this Member Day hearing 
today.
    As the Vice Chair of the Select Committee on Modernization 
of Congress, I also want to thank this Committee, and 
particularly Ms. Lofgren and Ranking Member Davis for their 
partnership and for their participation in the Committee. They 
have been a great help to us, and it is wonderful to have their 
voices represented and your Committee as well on the Select 
Committee.
    I want to thank Mr. Kilmer here, who has been a wonderful 
chairman to work with. The environment he has created and what 
we have been able to do in this Committee is unmatched, I 
believe, here in Congress to this point. I am grateful for the 
environment he has created of productivity and bipartisanship. 
It is one that all committees should, quite frankly, model.
    When the Select Committee first started, he and I chose to 
work together and combine our resources as one team. I say ``he 
and I.'' It was actually his idea. Instead of separating into 
two different teams and having two different staffs and two 
different offices working from different spaces, we have chosen 
instead to work together as one team. Thanks to the Chairman 
this experiment has created a bipartisan bond of trust and 
collaboration unlike anything I have experienced thus to this 
day in Congress.
    Under this unique approach, as he mentioned, we have been 
able to pass 29 recommendations unanimously, and that is 
something that has not occurred in Congress in a special select 
committee such as this in more than two decades, and that is a 
great accomplishment.
    And we are not done yet. We have more to come. Just last 
week, the House extended the Committee through the rest of this 
Congress, which we are grateful for because there is more work 
to do. I am excited to have the opportunity to build on this 
year's work and dive even deeper into the issues affecting the 
legislative branch.
    Every recommendation we make aims to strengthen the 
capacity of the legislative branch so that we can better serve 
all Americans and each of our constituents better.
    Our first round of recommendations included transparency-
focused recommendations, and that was done in May, and we aim 
to open up Congress for the American people.
    Our second round highlighted the need for better technology 
and better processes here in the House, which I think we can 
all agree are deeply needed. For example, one of our 
recommendations was that Members of Congress should receive 
mandatory cybersecurity training.
    This is an idea that came from our Member listening day in 
the very beginning of our inception of the Committee, and it 
came from Kathleen Rice from New York, who has a bill on this 
very practice.
    If Congressional staff are mandated to undergo this type of 
training, we believe Members should as well. That is just one 
example of some of the thoughts we had there in the beginning.
    In September we held a hearing related to the congressional 
schedule. This is one that I think all Members are very curious 
about and have had a lot of great thoughts and input on, and 
that is, how do we better comprise the calendar and schedule to 
assist each of us in doing our job better, but also 
representing our constituents more thoroughly.
    We have had a hearing to discuss improving civility 
throughout the Halls of Congress, which I know is on 
everybody's minds here, how can we create a more productive 
environment, as we have heard from Mr. Phillips as well.
    We have had conversations about budget and appropriations 
reform, congressional mailing standards, and communicating with 
our constituents.
    I want to thank the members of this Committee for working 
with us during this process. You have been really good 
partners, and we couldn't have done it without you and your 
staff and all the insight that has been provided.
    As this hearing today focuses on legislation within your 
jurisdiction, I want to reiterate how significant it is that we 
are working together on legislation that this Committee 
hopefully will markup in the days ahead and move to the floor, 
which includes the first 29 recommendations. This creates a 
precedent for our committees to continue working together to 
improve the institution on behalf of the American people.
    This ongoing work is a big deal because it is the first 
time a committee like ours has seen work move through the 
legislative process. So we are in new territory, and we are 
doing it together.
    We have clearly made it known to everyone that no idea is 
too big, no idea is too small, and we encourage everyone to 
continue sharing their ideas with reform with us.
    And, Mrs. Davis, we greatly appreciate the time this 
morning.
    Mr. Loudermilk, good to spend it with you. I yield back.
    [The statement of Mr. Graves follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis. Thank you very much.
    And I just wanted to acknowledge, before moving on to Mr. 
Olson quickly, just our gratitude really for the work that you 
all are doing in such a fine bipartisan manner. You are good 
listeners, but more than that, I think you are trying to find 
ways to best apply what you are hearing from Members and 
perhaps even go beyond the initial suggestion, but how can we 
do better in some other areas as well. So we greatly appreciate 
that.
    And thank you also for working on the modernization of the 
franking process, and hope that we will see some real results 
as soon as possible. I just want to congratulate you as well 
for the fact that you are also being extended into the next--
second year of the term, and we look forward to all your 
recommendations.
    Thank you very much.
    Mr. Olson, you are recognized for five minutes.

STATEMENT OF THE HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Olson. Thank you, Chairwoman Davis and Mr. Loudermilk, 
for this opportunity to talk to this Committee about a very 
important issue I feel should be addressed sooner rather than 
later. I won't read my opening statement because you guys have 
it, you can read it yourselves, and plus, I don't want to 
burden some of our listeners with my Texas twang.
    I know my statement is in some ways not the direct purview 
of this Committee, it is more with the Ethics Committee, but to 
make the changes I think we have to make, the Ethics Committee 
will have to have some input from the Rules Committee, and that 
is why I am here this morning.
    First of all, my district, Texas' 22nd District, it is the 
largest district in America right now, over 1 million people 
and growing. It is the most diverse district in America, in the 
entire world. It is on track for this census to be 25 percent, 
25 percent, 25 percent, 25 percent equally divided between 
Caucasians, African Americans, Asians, and Hispanics.
    Two-thirds of the people, of the students in our public 
schools, are bilingual. We have the wealthiest county per 
capita in Texas. Not a bunch of people making millions of 
dollars, but the average salary is somewhere between 
(inaudible) dollars, and, again, we have all these issues.
    As I mentioned, in our public schools, two-thirds of our 
kids are bilingual. The biggest news radio station in my region 
is Univision 45. They have the highest ratings at 5 a.m., 6 
a.m., 10 a.m., noon, 4 p.m., 5 p.m., 6 p.m., and 10 o'clock at 
night. They are number one. Their audience is bilingual. Ninety 
percent speak Spanish and English and maybe another language.
    And so my point is, this Congress has to have the weapons 
going forward, the tools to communicate with all these 
different groups. These communications are the key to us being 
Representatives for the people. And right now our current 
system does not allow that to happen.
    Our current communications policies are like rubbing sticks 
for fire. They are archaic. We can basically use email, frank 
mail in 10 and 499s, but that is the last century. We have to 
upgrade to be using modern technology, that means social media.
    For example, the problems I have encountered since I have 
been in Congress. When Hurricane Harvey hit my State, my region 
twice, came back after hitting us once, after hitting San 
Antonio, I could not tell people where to go to get advice 
through the Red Cross. If I put on some sort of social media, 
``Go contact the Red Cross,'' Ethics would say that violates 
our rules.
    Another example. If our veterans, if there is some sort of 
legal seminar to teach our veterans, our combat heroes their 
rights when they become civilians, if that is not held 
somewhere where the VA is, one of their buildings, if it is 
held in a private building, a law firm, or some civic center, 
like the Rosenberg Civic Center, I can't put that out on my 
social media. I am banned from doing that.
    Now, if I go to the Floor and give that same input on the 
Floor, that is okay. In fact--I am not proud of this--we had 
this test with the Ethics Committee yesterday because we found 
out--another issue I have had--a young lady did a great thing. 
She got this big award for this big app contest, some 
scholarship money. Great.
    We called the Ethics Committee and said, Can we put this 
out on social media? And their answer was not just no, but heck 
no. You are somehow promoting this--I don't know what they are 
trying to do. But the bottom line is, we asked them if I get 
the poster I wanted to put in the social media, put that on the 
floor with an easel, made the same exact speech I want to put 
on social media, is that okay? And they said, We think so. And 
that is wrong.
    We have to untie our hands in this Congress and the next 
Congress, all the Congresses, to make sure we can communicate 
with the people in the means that they take the information, 
and that means unleashing social media through all the mediums 
not just on the Floor.
    Thank you so much for having me. I am happy to take some 
questions. And to our soldiers here, I have to remind you, in 
three weeks Navy will beat Army.
    I yield back.
    [The statement of Mr. Olson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis. Thank you, Mr. Olson.
    I wanted to turn to Mr. Loudermilk and see whether you have 
any comments as well that you wanted to make.
    Mr. Loudermilk. I do. Appreciate it. And I do have a 
question for Representatives Rice and Olson.
    Since you just went, Representative Olson, I will just say 
this. I agree with your frustration on some of this. I think it 
is something we need to look at and figure out a way. Because 
in a couple instances, in my district we have some 
organizations that are very targeted. In other words, there is 
not more than one organization doing this in the entire State.
    And one of those is very personal to me, which is an 
organization that is trying to help veterans who are suffering 
from PTS and PTSD. We have 22 veterans a day, 22 a day that 
commit suicide.
    What they do is try to intercept the veterans and get them 
help before they take that drastic measure. Any help that I do 
to them, I can't do what you are talking about. I have to do it 
either through a campaign side or try to do it personally or 
something like that. And so that does get to be a frustration 
in there.
    And another is, tomorrow evening I will be having an event 
that I am having to do through the other side of our operation 
here that is actually trying to help the needs of people in our 
district that are homeless and also young families, young 
mothers. There is a desperate need for diapers and things for 
young children that I would like to be able to help in that, 
and I am not able to do that.
    So I appreciate what you have to say, and I think it is 
something we should digest.
    One other thing, and maybe I should go sit over there some, 
too, or if the Ethics Committee has a hearing to sit down. I 
think it is crazy that when we are looking for approval for 
travel from the Ethics Committee, anytime that I have done 
that, I would say 80 percent of the time the approval for my 
travel comes less than 24 hours before I leave. And with my 
staff it is usually after they are already at their 
destination. And I think we have to do better than that.
    And if I may, Representative Rice, I am with you on all 
fronts, being someone who is in Cannon as well. And we did have 
a hearing recently on the renovations. And the cost factor is 
exorbitant. And a lot of it isn't the contractor, it is our own 
government, our own regulation, as well as a historic building 
and renovation.
    But we should expect more out of it, and one of the things 
that--with the elevators, yeah, we need some definite work. I 
got on an elevator a couple weeks ago. I couldn't get off. The 
elevator went between floors, but the door wouldn't open.
    So I finally decided, let me go back to the floor that we 
started on and it opened there. So I went around and I told the 
Capitol Police, I said, just to let you know, elevator number 
9, I am getting on, we got stuck on the elevator. He goes, 
yeah, that has been happening a lot. I will call them again. 
And so I understand your frustration.
    But also the new elevators in the hallway where one is 
reserved for Members only----
    Mr. Rice. Yes.
    Mr. Loudermilk [continuing]. But there is only one call 
button.
    Mr. Rice. It makes it take longer for Members and everybody 
else, too.
    Mr. Loudermilk. Well, and it is not just that. I will see 
people, constituents, people there visiting other offices, they 
will push the call button, and that one reserved for Members 
only is the only one that comes up and they are standing there 
not knowing what to do, you know, so----
    Mr. Rice. I think we don't do enough to hold people 
accountable. I mean, I think that is one of the reasons why 
bureaucracy is a difficult way to manage anything.
    But if they can't get rid of the rats--vermin--vermin--if 
they can't get rid of the vermin, and they can't seem to handle 
these things that are, you know, very commonplace and easy to 
handle in the commercial office space sector, then perhaps we 
should consider hiring a management company that does know how 
to do it and get the Architect of the Capitol doing something 
else, because they are not doing an acceptable job of managing 
the Cannon Office Building. And people in my office are getting 
sick from it, and that is not acceptable.
    Mr. Loudermilk. And the last comment I will make is on the 
heating and cooling. You are having the exact opposite problem 
that we are having on our side of the building because of the 
management of the heating and air system.
    During the summer, because of shutting off the entire air 
conditioning system on the weekends, it takes almost 2 full 
days to get our office cool when we come in after a weekend. 
And, I mean, it is very hot in our offices for a full day, and 
usually it is on into the next day. So I think it is something 
we need to work on.
    Thank you.
    Mr. Rice. Thank you.
    Mrs. Davis. Thank you very much. I appreciate the 
discussion from both of you.
    I wanted to just mention to Mr. Olson briefly that I think 
we all understand a lot of that problem. And franking is trying 
to help us communicate in the way that we actually speak to 
people, in a way that doesn't--certainly doesn't put people off 
and feel like somehow we are just coming down hard on one 
decision or another.
    But the other issue is how we deal with private charities 
and whether or not it is perceived that we might be pushing one 
out and not another. And sometimes we all face the situation, 
if you start saying yes too many times, then you start saying 
no, and people feel that you are not being open and fair to 
everybody.
    So I think that part of the difficulty is that we can't 
really use our official resources to be seeming to either 
promote or allow information floating from private charities.
    And so it is something we have to work better on. And it 
may be that there are some solutions that people have come up 
with in terms of how we link information, get around that, so 
it is not coming directly from our offices.
    But we appreciate your bringing all of that forward, and it 
is something to continue to try and address. Thank you.
    Mr. Olson. Thank you very much. I know this is not your 
purview directly but thank you for listening to me and my 
concerns, because we have to get to the 21st century with 
communications. There is no reason the Floor has its rules, and 
out there with the social media we have different rules. So 
thank you for your time and consideration.
    Mrs. Davis. Thank you. Thank you, both.
    And we are going to turn to what is actually our second 
panel here, but, Mr. Takano, you are here and I wanted to 
introduce you now.
    Representative Mark Takano was elected in 2012 and 
represents California's 41st District, which includes 
Riverside, Moreno Valley, Jurupa Valley, and Paris. He is the 
Chairman of the Committee on Veterans' Affairs and serves on 
the Committee on Education and Labor.
    Please, you are recognized for five minutes.

STATEMENT OF THE HON. MARK TAKANO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Takano. Thank you, Chairwoman Davis. I want to 
acknowledge Mr. Loudermilk as well.
    I appreciate the work of Chairperson Lofgren, Vice Chairman 
Raskin, and Ranking Member Davis and Members of the Committee. 
I want to thank you for the opportunity to testify at your 
Member Day hearing.
    I am here to advocate for the reestablishment of the Office 
of Technology Assessment, and I want to ask that this Committee 
do a hearing on H.R. 4426, the Office of Technology Assessment 
Improvement and Enhancement Act. It is a bipartisan, bicameral 
bill I introduced with Representative Foster and Senators 
Tillis and Hirono in September that would modernize the way in 
which a reconstituted Office of Technology Assessment would 
operate.
    I want to thank Vice Chair Jamie Raskin for his support of 
the bill. He is not here, but he is one of the cosponsors of 
the bill.
    The foundation for good policy is accurate and objective 
analysis. And for more than two decades, the Office of 
Technology Assessment, before it was defunded, set that 
foundation by providing relevant, unbiased technical and 
scientific assessments for Members and staff. But in 1995, the 
Office of Technology Assessment was defunded, stripping 
Congress of a valuable resource.
    Congress has an important role to play in making sure that 
the benefits of advances in science and technology are 
distributed equally throughout our society and that the 
potential harms are mitigated. In order to do this, we need to 
strengthen our capacity to understand emerging technology and 
its social and policy implications.
    Now, there is wide agreement within Congress and among our 
external stakeholders that Congress needs access to unbiased 
technological expertise to weigh the pros and cons of policy 
questions surrounding current and emerging technology issues, 
including cybersecurity, artificial intelligence, quantum 
computing, and many, many more matters. The challenge is in 
determining how Congress can best gain access to and utilize 
this expertise.
    Last year, appropriators funded the Congressional Research 
Service to work with the National Academy on Public 
Administration to conduct a report on current science and 
technology resources available to Congress and recommended 
options for enhancing their resources.
    This report, which is actually called--I want to get the 
name for you here--the National Academy of Public 
Administration, NAPA. That is what NAPA stands for. We agree 
with the NAPA report's assessment of the needs of Congress and 
with their determination that restoring the OTA would be highly 
desirable. However, we disagree with their conclusions that 
restoring OTA is not viable and that the Government 
Accountability Office alone can meet Congress' total tech 
assessment needs.
    In 2002, GAO began conducting technology assessments. More 
recently, GAO received funding to establish the Science, 
Technology Assessment, and Analytics team, otherwise known as 
STAA. You can call it STAA, but STAA stands for Science and 
Technology Assessment and Analytics team.
    Now, while GAO does great work, the inadequate policy 
responses to emerging technology issues, the continued calls 
for Members and staff on both sides of the aisle to restore 
OTA, and the $6 million in the fiscal year 2020 House 
appropriations bill to restore the OTA demonstrate that GAO 
hasn't and won't be able to fully address Congress' needs.
    And this is not just a numbers issue. Even with increased 
staffing, GAO is not really well suited to anticipate issues or 
identify future trends, nor is it responsive and accessible to 
all Members.
    There is a clear need for the forward-looking approach of 
OTA to complement the work of GAO and CRS. There is also room 
to improve on and modernize the OTA to address its past 
criticisms and to enable it to better meet our current needs.
    Among the concerns I have heard are that the old Office of 
Technology Assessment was not responsive to all Members and 
that it did not always maintain a fresh approach.
    Our bill envisions a modernized OTA that is responsive to 
all Members of Congress and provides short-term technical 
expertise while maintaining the forward-looking assessment work 
OTA was known for. Our bill includes a rotator program to bring 
in experts from academia and industry, ensuring a steady flow 
of cutting-edge expertise.
    We propose calling this rebooted office the Congressional 
Office of Technology, emphasizing its position as an essential 
tool of Congress. An updated Technology Assessment Office, like 
the proposed Congressional Office of Technology in my 
legislation, would combine deep technical expertise and robust 
forward-looking reports with the ability----
    Mrs. Davis. Excuse me, Mr. Takano, if you could please wrap 
up your comments.
    Mr. Takano [continuing]. To be responsive to the immediate 
questions and needs of Members and staff.
    The needs will inevitably continue to rise as Congress 
responds to rapid changes in technology. As we continue to seek 
new and innovative ways to modernize Congress, restoring OTA 
and making it more responsive, accessible, and transparent is 
an important means through which we can ensure Congress has the 
tools it needs to respond to the unique challenges of our time.
    [The statement of Mr. Takano follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis. Thank you very much.
    Mr. Takano. Sorry. I wasn't paying attention to the time.
    Mrs. Davis. That is all right. We appreciate it.
    Mr. Loudermilk would like to make a few comments.
    Mr. Loudermilk. Sure.
    Thank you for your comments. As somebody who spent 20-plus 
years in the IT sector, there is a lot that we can do with 
technology, especially on the legislative side.
    But I would also like to see maybe the legislation to 
include our operations in our offices of how we can actually 
safely, securely, but effectively use technology to improve our 
operations and our constituents.
    Mr. Takano. Mr. Loudermilk, I fully agree that the idea 
that I think the TechMod Committee is working on, or the 
committee Mr. Kilmer leads, which is an emphasis on a 
technology information lab for Congress and its operations, 
that is sorely needed. I mean, I feel like I don't have enough 
information nor skills or practice to use technology safely and 
securely.
    That is a different mission than the dilemma I faced as a 
legislator in December 2015 representing Riverside County when 
we had two assailants in Riverside that--the San Bernardino 
shootings occurred next door to me. We had the Department of 
Justice arguing before a U.S. magistrate that Apple should open 
up the iPhone and order its code writers to open it up. You had 
Apple saying, no, we don't want to do that. And Congress had 
not really dealt with the issue of encryption.
    So who are we to believe as Members of Congress, the 
Justice Department, that says they should have this ability to 
do that, or the industry? We don't really have our own policy 
advisers to lay out those options for us.
    The OTA, I think, is--the Congressional Office of 
Technology, I envision it as a place where we, Members of 
Congress, we the first branch of government, have our own bank 
of experts, that we are not waiting around for GAO to issue a 
report, but that this office has already begun to scan the 
horizon in the future and began to look at the ways in which 
innovation will need to be addressed by policymakers, how much 
to regulate or not regulate, et cetera, but lay out those 
policy options, and we need that expertise.
    Mrs. Davis. Thank you. Thank you, Mr. Loudermilk.
    I also, just commenting briefly, the first thing that came 
to my mind, of course, is the GAO and having them more engaged 
in this effort, more proactively if possible. But I think that 
you bring some important issues to the fore, obviously being 
dealt with in a number of committees, Armed Services, for 
example, in terms of how we do a better job of sharing some of 
that technology and making sure that its function is applied in 
a way that makes sense for our cities, for our communities.
    Mr. Takano. Yes. And, Madam Chairwoman, I do want to 
acknowledge that GAO has established this function and it is 
staffed up, and they do really great work. But I think we all 
know what it takes to get GAO to study something.
    Mrs. Davis. Sure.
    Mr. Takano. My belief is that we need something that is far 
more responsive to Members' needs. This Office of Technology 
Assessment needs to do the more anticipatory, forward-looking 
kinds of future scanning, which GAO is also engaged with. But I 
think we need something akin to the Congressional Budget 
Office, which has that sort of independent authority, we get 
our bills scored, but only in the technology space, that we--
and that Members on an individual basis can also, with their 
individual technology sort of projects, can also get 
consultations.
    As you know, we are very fortunate to even have a 
technology expert on our own personal staff. So I urge a 
hearing on this by the Committee.
    Mrs. Davis. All right. Thank you very much for bringing 
that to our attention. We appreciate you being here.
    Mr. Takano. Thank you.
    Mrs. Davis. And seeing no other Members ready to testify, I 
want to thank our colleagues for joining us this morning. And 
this hearing of the Committee on House Administration is, 
without objection, adjourned.
    [Whereupon, at 9:26 a.m., the Committee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                            [all]
    
</pre></body></html>
